<html>
<title> - H.R. 3137, A BILL TO AMEND THE PRESIDENTIAL TRANSITION ACT OF 1963</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



   H.R. 3137, A BILL TO AMEND THE PRESIDENTIAL TRANSITION ACT OF 1963

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
                      INFORMATION, AND TECHNOLOGY

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3137

    TO AMEND THE PRESIDENTIAL TRANSITION ACT OF 1963 TO PROVIDE FOR 
   TRAINING OF INDIVIDUALS A PRESIDENT-ELECT INTENDS TO NOMINATE AS 
DEPARTMENT HEADS OR APPOINT TO KEY POSITIONS IN THE EXECUTIVE OFFICE OF 
                             THE PRESIDENT

                               __________

                            OCTOBER 13, 1999

                               __________

                           Serial No. 106-119

                               __________

       Printed for the use of the Committee on Government Reform


                               __________


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform
                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
64-650                     WASHINGTON : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Government Management, Information, and Technology

                   STEPHEN HORN, California, Chairman
JUDY BIGGERT, Illinois               JIM TURNER, Texas
THOMAS M. DAVIS, Virginia            PAUL E. KANJORSKI, Pennsylvania
GREG WALDEN, Oregon                  MAJOR R. OWENS, New York
DOUG OSE, California                 PATSY T. MINK, Hawaii
PAUL RYAN, Wisconsin                 CAROLYN B. MALONEY, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          J. Russell George, Staff Director and Chief Counsel
   Bonnie Heald, Director of Communications/Professional Staff Member
                          Chip Ahlswede, Clerk
                    Trey Henderson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 30, 1999.................................     1
    Text of H.R. 3137............................................     7
Statement of:
    Ink, Dwight, former Assistant Director, Office of Management 
      and Budget; Paul Light, director, Center for Public 
      Service, Brookings Institution; and Norman J. Ornstein, 
      resident scholar, American Enterprise Institute for Policy 
      Research...................................................    26
    Richardson, Elliot, attorney general to President Nixon; and 
      Lee White, former assistant counsel to President Kennedy 
      and counsel to President Johnson...........................    11
Letters, statements, et cetera, submitted for the record by:
    Horn, Hon. Stephen, a Representative in Congress from the 
      State of California:
        Letter dated October 7, 1999.............................    61
        Prepared statement of....................................     9
        Presidential Transition Act of 1963......................     2
        Task Force Reports to the National Commision on the 
          Public Service.........................................    16
    Ink, Dwight, former Assistant Director, Office of Management 
      and Budget, prepared statement of..........................    28
    Light, Paul, director, Center for Public Service, Brookings 
      Institution, prepared statement of.........................    43
    Ornstein, Norman J., resident scholar, American Enterprise 
      Institute for Policy Research, prepared statement of.......    54
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................    67

 
   H.R. 3137, A BILL TO AMEND THE PRESIDENTIAL TRANSITION ACT OF 1963

                              ----------                              


                      WEDNESDAY, OCTOBER 13, 1999

                  House of Representatives,
Subcommittee on Government Management, Information, 
                                    and Technology,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen Horn 
(chairman of the subcommittee) presiding.
    Present: Representatives Horn, Ose, and Turner.
    Staff present: Russell George, staff director/ chief 
counsel; Matthew Ebert, policy advisor; Bonnie Heald, director 
of communications/professional staff member; Chip Ahlswede, 
clerk; P.J. Caceres and Deborah Oppenheim, interns; Trey 
Henderson, minority counsel; and Jean Gosa, minority staff 
assistant.
    Mr. Horn. A quorum being present, this hearing of the 
Subcommittee on Government Management, Information, and 
Technology will come to order.
    Until 1963, the primary source of funding for Presidential 
transitions was the incoming President's political party and 
the contributions of volunteer staff. The Presidential 
Transition Act of 1963 was enacted to authorize Federal funding 
and assistance for incoming Presidents. It also provided the 
authority for the outgoing President and Vice President to use 
the funds for their transition into private life for up to 6 
months. The act authorized the appropriation of $900,000 to be 
divided equally between the incoming and outgoing 
administrations.
    In 1976, Congress amended the Presidential Transition Act 
of 1963 to increase the funding provided in the 1963 act.
    In 1988, Congress passed the Presidential Transition 
Effectiveness Act, which again raised the funding for 
Presidential transitions, and included a provision that calls 
for annual adjustments for inflation. In addition, the 1988 act 
required that all preelection transition funds must be acquired 
privately, and the names of all transition personnel and 
private contributors are publicly disclosed.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.001
    
    [GRAPHIC] [TIFF OMITTED] T4650.002
    
    [GRAPHIC] [TIFF OMITTED] T4650.003
    
    [GRAPHIC] [TIFF OMITTED] T4650.004
    
    [GRAPHIC] [TIFF OMITTED] T4650.005
    
    Mr. Horn. Over the years, there have been many examples of 
missteps and outright errors made by newly appointed officials 
in the White House. However capable and well-intentioned, new 
and unseasoned appointees are especially susceptible to 
misjudgments that, at a minimum, can be politically 
embarrassing, but can also have serious consequences on the 
administration's credibility.
    As we have seen, sometimes the errors tumble out in 
misstatements or ill-advised recommendations; other times, they 
have resulted in ethical lapses by an appointee who was unaware 
of the ethical standards required by Federal law. These errors 
could have been avoided if these appointees had properly 
understood the scope of their responsibilities, or, I might 
add, if they thought what this action would look like on the 
front page of the Washington Post or any major paper before you 
do it.
    Accordingly, I am introducing a bill that would amend the 
Presidential Transition Act of 1963 to authorize the use of 
Presidential transition funds for a formal orientation process 
for incoming appointees to top White House positions, including 
Cabinet members. This bill would encourage the orientations to 
take place between the general election and 30 days after the 
inauguration. By establishing this timeframe for top appointee 
orientations, this bill would increase the likelihood that a 
greater number of lower-level appointees might also receive 
White House orientations earlier in the new administration.
    [The text of H.R. 3137 follows:]


106th CONGRESS
1st Session
                               H. R. 3137

    To amend the Presidential Transition Act of 1963 to provide for 
   training of individuals a President-elect intends to nominate as 
department heads or appoint to key positions in the Executive Office of 
                             the President.

                                 ______
                                 

                    IN THE HOUSE OF REPRESENTATIVES

                            October 25, 1999

  Mr. Horn (for himself, Mr. Turner, Mrs. Biggert, Mr. Kanjorski, and 
  Mrs. Maloney of New York) introduced the following bill; which was 
             referred to the Committee on Government Reform

                                 ______
                                 

                                 A BILL

    To amend the Presidential Transition Act of 1963 to provide for 
   training of individuals a President-elect intends to nominate as 
department heads or appoint to key positions in the Executive Office of 
                             the President.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. AMENDMENTS TO PRESIDENTIAL TRANSITION ACT OF 1963.

    Section 3(a) of the Presidential Transition Act of 1963 (3 U.S.C. 
102 note) is amended--
            (1) in the matter preceding paragraph (1) by striking 
        ``including--'' and inserting ``including the following:'';
            (2) in each of paragraphs (1) through (6) by striking the 
        semicolon at the end and inserting a period; and
            (3) by adding at the end the following:
            ``(8)(A) Payment of expenses during the transition for 
        briefings, workshops, or other activities to acquaint key 
        prospective Presidential appointees with the types of problems 
        and challenges that most typically confront new political 
        appointees when they make the transition from campaign and 
        other prior activities to assuming the responsibility for 
        governance after inauguration, including interchange with 
        individuals who held similar leadership roles in prior 
        administrations, agency or department experts from the Office 
        of Management and Budget or an Office of Inspector General of 
        an agency or department, and relevant staff from the General 
        Accounting Office.''.
            ``(B) Activities funded under this paragraph shall be 
        conducted primarily for individuals the President-elect intends 
        to nominate as department heads or appoint to key positions in 
        the Executive Office of the President.''.

                                   - 

    Mr. Horn. This bill is an important step toward restoring 
confidence in the ability of the Executive Office of the 
President to run its affairs in a responsible manner.
    At today's hearing, we will hear from a group of 
distinguished witnesses. On our first panel, we have two 
gentlemen who hold a unique perspective on the Presidency. We 
welcome Mr. Lee White, who was assistant counsel to President 
John F. Kennedy and counsel to President Lyndon B. Johnson; and 
Mr. Elliot Richardson, former Attorney General for President 
Richard Nixon and a holder of at least four other Cabinet 
positions, including Defense.
    On panel two, we have Mr. Dwight Ink, former Assistant 
Director of the Office of Management and Budget; Mr. Paul 
Light, Director of the Center for Public Service at the 
Brookings Institute; and Mr. Norman J. Ornstein, a resident 
scholar at the American Enterprise Institute for Policy 
Research.
    We welcome each of you and look forward to your testimony.
    [The prepared statement of Hon. Stephen Horn follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.006
    
    [GRAPHIC] [TIFF OMITTED] T4650.007
    
    Mr. Horn. I now yield to the subcommittee's ranking member, 
Mr. James Turner of Texas, for a statement.
    Mr. Turner. Thank you, Mr. Chairman. I commend you on the 
legislation you have brought forward. It seems to me a very 
good idea, and you have brought together a very distinguished 
panel to discuss it. Obviously anything that we can do to 
assist the transition of a newly elected President and his 
appointees and Cabinet members to make the transition smoother, 
we ought to do it. There have been plenty of examples, as the 
chairman mentioned, of cases where new appointees showed some 
indication that they were not quite ready for the new job that 
they had assumed. I think your idea here of providing an 
opportunity for briefings and workshops and other activities 
for key prospective appointees is a very good one.
    I would like to thank the two panels who have come to 
discuss the issues with us today.
    Mr. Horn. I thank the gentleman.
    [Witnesses sworn.]
    Mr. Horn. We will now proceed with panel one and begin with 
a very distinguished public servant who a lot of us have known 
for 20 and 30 years. The Honorable Elliot Richardson was 
Attorney General to President Nixon. He was Under Secretary of 
State, Secretary of HEW, and then Secretary of Commerce and 
Secretary of Defense.
    Mr. Richardson, it is all yours.

STATEMENTS OF ELLIOT RICHARDSON, ATTORNEY GENERAL TO PRESIDENT 
  NIXON; AND LEE WHITE, FORMER ASSISTANT COUNSEL TO PRESIDENT 
            KENNEDY AND COUNSEL TO PRESIDENT JOHNSON

    Mr. Richardson. Thank you very much, Mr. Chairman, and 
members of the subcommittee. I feel not only privileged to have 
the opportunity to lead off the testimony in this hearing, but 
I also believe that it probably is one of the more important 
hearings that will be held in the Congress this year. It is 
fair to say that one would be aware of its importance only with 
the kind of experience one acquires through seeing the process 
whereby people are coming from their roles in the private 
sector, going to their new assignments in government, and the 
need for supplementation of their knowledge by as rapid as 
possible an exposure to the very integral kind of environment 
they are coming into. It is different, of course, in a whole 
lot of ways that I don't need to enumerate, but one is in the 
controversiality of many of the issues that they will address, 
the degree of public attention focused on them, and not the 
least the necessity of dealing with the legislative branch of 
the government, which at the end of the day has power and 
responsibility to dispose of the issues that are addressed by 
the executive branch.
    There is also the relationship between the new Presidential 
appointees and the career services and their members who were 
there before the Presidential appointees arrived and will be 
there after they are gone.
    I think these are among the reasons for the legislation 
that you have before you.
    I was pleased to have the opportunity to read the testimony 
of Dwight Ink, at least the statement that he prepared, and I 
think that is a very comprehensive and persuasive presentation 
of the kinds of considerations that I have briefly touched on, 
and a range of other considerations which are also relevant to 
this legislation. I strongly support everything he has said.
    I would also suggest, however, that beyond the problem 
which, I take it, has to be addressed through legislation for 
appointees of an incoming President before he takes office in 
order to meet the expenditures thereby entailed, that we should 
not lose sight of the need for the orientation and briefing of 
new Presidential appointees who come into office after the 
administration has taken over. The same considerations that 
apply to them due to the appointees before the administration 
takes office apply to the new Presidential appointees who are 
recruited who come in after the administration is already in 
place. That may not need legislation, but the considerations 
that do require legislation should be recognized as having 
continued importance, and perhaps the committee in its own 
report, I hope, recommending legislation for adoption with 
whatever modifications it may see fit to make will call 
attention to this second point.
    The testimony of Dwight Ink, which is the only statement 
that I have seen, touched on a great many of the considerations 
which bear on the needs for this legislation. I want to stress 
one of them; and to that end, Mr. Chairman, I have brought with 
me, which I have submitted to the committee staff, a copy of a 
recommendation of a task force of the so-called Volcker 
Commission, more formally known as the National Commission on 
the Public Service, on which I sat in 1998. My task force 
addresses the relations between political appointees and career 
executives.
    It is fair to say that not only is considerable time lost 
in development of a clear understanding by new appointees of 
the importance of this relationship, but also there is a good 
deal of unnecessary strain that arises out of the 
misunderstandings and misperceptions brought to their new posts 
by Presidential, which is to say political, appointees to the 
government insofar as their relationships with public servants 
of the executive branch agencies are concerned.
    The word, ``bureaucrat,'' as we all know, carries many 
negative connotations. It need not have negative connotations. 
I would advise to pretend that it doesn't deserve any negative 
connotations. I will emphasize, however, that a bureaucracy is 
any large organization requiring staff and addressing several 
important purposes. AT&T is a bureaucracy. IBM is a 
bureaucracy, and so on.
    I personally regard myself as, first of all, a politician, 
although I seldom, I think, have been recognized as such, but I 
have long believed that John B. Fisher, then editor of Harvard 
Magazine was right when I heard him tell a Harvard audience 
that politics is the most difficult of the arts and the noblest 
of the professions. I wish not only that more members of the 
general public understood and believed that, but also wished 
that more politicians understood and believed it.
    I presently do believe it, even though I think I am 
seldom--let me restate that. I am not often enough thought of 
as a politician.
    Second, I regard myself as a bureaucrat with equal pride. 
To be a good bureaucrat, particularly as a Presidential 
appointee, requires that you undertake a very complex and 
demanding administrative job fraught also with the necessity 
for addressing difficult and controversial public issues. You 
are the head of an organization which is responsible to the 
policy leadership of the President under whom you serve, but 
also accountable to the general public through, in the first 
instance, contact and accountability to the Congress of the 
United States, but also to the general public via media, via 
all kinds of organizations around national and regional and 
local through whom the policy and purposes that you serve are 
communicated to the American people.
    You need--in order to be able to achieve any of the public 
purposes of the public organizations in which you serve, and 
especially for those who head the organizations, you need to 
understand that everything you do depends at the end of the day 
on the people who are permanent members of the organizations of 
which you are a part. And you need to know that the great 
majority of them are people who would not be there if they were 
not genuinely dedicated to serving the public interest in the 
post that they hold. You need to presume that and proceed on 
that assumption, and only qualify it to the extent that in your 
relationships with a given individual over time, you find that 
assumption may not be entirely warranted.
    I want to emphasize, Mr. Chairman, my first Presidential 
appointment was by President Eisenhower. I was Assistant 
Secretary for Legislation. I dealt with every committee and 
subcommittee of the Congress of the United States that dealt 
with any legislation involving health or education or welfare. 
There were only about five Presidential appointees in HEW in 
those days, maybe seven. I was No. 3 in rank order, you might 
say, and I served for substantial periods as Acting Under 
Secretary and Acting Secretary of HEW under President 
Eisenhower. As you pointed out, I headed four Cabinet 
departments and served as No. 2 in State.
    I think I speak with not only firsthand knowledge, but 
complete realism toward the necessity for constructive 
relationships between Presidential appointees and media, the 
very real potential for those relationships. This is undercut 
if the Presidential appointee is a smart aleck and a cynic and 
stupid enough to suppose that you have to be a businessman or a 
Republican or a Democrat of your own basic orientation in order 
to be devoted to the best interests of the United States.
    Presidential appointees, I am sorry to have to say, in most 
cases need to be made aware of that. They are becoming, you 
might say, officers in an institution in which there are people 
ready to be led who know that they need leadership in the 
resolution of political issues that it is not their job, they 
know it is not their job, to have to resolve, but who are quite 
ready to follow that leadership, especially if it is 
intelligent and articulate, and especially if the political 
appointees take the trouble to engage them in a process which 
communicates understanding of those policy decisions.
    I would like to give one example going back to the 
Eisenhower administration which I think is very telling in this 
respect. There was a bill which had been introduced at that 
time by a senior Member of Congress from Rhode Island whose 
name eludes me at the moment, but it was the first piece of 
legislation proposing the establishment of what we now call 
Medicare.
    I believed that the Eisenhower administration needed to 
have its own initiative in addressing health care needs and the 
financing of those needs for the elderly, so I put together a 
small group. There were hardly any political people in the 
Department at that time. We relied on career people to develop 
the Eisenhower administration's counterpart with a Republican 
slant and perspective on how to vote. This group came forward 
with what I thought was a not very coherent or convincing 
approach, and I met with them and we talked about it, and they 
came back with a new version which wasn't much better. And then 
it struck me their problem was not that they were trying to 
impose something that reflected their own political biases, the 
problem was that I had not made clear enough what were the 
fundamental political decisions and policies that we, the 
Eisenhower administration, saw as necessary to approaching that 
problem.
    I had to do the work of singling out what these were, and 
the approach that I came up with was one which essentially gave 
in a different context we now call vouchers with which the 
Social Security beneficiary could buy health insurance 
coverage. That is enough for present purposes.
    The point is that when I gave them a clear idea of what the 
political objectives were, then they could begin to apply it 
intelligently.
    I came into the Nixon administration as what we now call 
Deputy Secretary of State. I had never had a foreign policy job 
before. I never worked with the Foreign Service. But one thing 
I learned very early on, when I saw somebody smile or look at 
another member of the Foreign Service around the table when we 
were discussing some issue with a wink, or sort of a smirk, I 
knew that I should ask that person a question, and if I asked a 
question about what they thought about what I had been saying 
up to that point and the direction of policy, they gave me a 
straight answer drawing on their knowledge and experience of 
the issue. They had been kicked around by enough political 
appointees so they didn't necessarily volunteer the answer, but 
if I got any clue to whatever didn't seem to be going across 
and asked, I got one.
    The relationship between political appointees in the 
Department of State is very much like the relationship between 
political appointees and the military services. I think there 
is something about the uniform and the stature of the military 
from day one ready to speak up, but I found in those early 
weeks that these people were dedicated, competent professionals 
and very ready to take political leadership.
    Now, I emphasize these things, Mr. Chairman, because the 
United States and the public are damaged by the wrong 
assumptions brought by political appointees to their positions. 
This is by no means the only reason why there needs to be an 
orientation at a transition stage, not only before an 
administration comes in, but for new appointees after the 
administration comes in.
    Other reasons are spelled out in Mr. Ink's testimony, which 
is the only statement that I have seen. But, Mr. Chairman, I 
want to emphasize the point that I have emphasized because in 
the first place I think I have almost a unique background for 
having acquired the point of view I have expressed, but also 
because I think it is a consideration that is far too little 
recognized, and it is important to the success of political 
issues. Thank you, Mr. Chairman.
    Mr. Horn. I am going to put in the record without objection 
the task force reports to the National Commission on the Public 
Service which was chaired by Mr. Volcker and the Task Force on 
the Relations Between Political Appointees and Career 
Executives which was chaired by our witness Mr. Richardson. It 
is a very worthwhile document, and I will put it at this point 
into the record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.008
    
    [GRAPHIC] [TIFF OMITTED] T4650.009
    
    [GRAPHIC] [TIFF OMITTED] T4650.010
    
    [GRAPHIC] [TIFF OMITTED] T4650.011
    
    Mr. Horn. We deeply appreciate your sharing those 
experiences with us. You might be interested to know that when 
one of your successors, the current incumbent, as Attorney 
General was testifying before us in this room, I asked if she 
recalled Attorney General Richardson's courageous retirement 
when he didn't believe it was possible for him to be persuaded 
by the White House and interfered with by the White House and 
what he did. I suggested that she might want to think about 
that experience when the White House was pressuring her, which 
they have.
    You have been a courageous, honest, and dedicated public 
servant, and our Nation is very much in your debt in this. 
You've been a role model for many of us, and we thank you for 
sharing those ideas. If you like, we are going to have Mr. 
White, and then we might ask a few questions. I know that you 
probably have a schedule of your own.
    We will ask Mr. White, who has had a long experience on 
Capitol Hill, and who is quite knowledgeable about White House 
work of quite different types.
    Mr. White. Thank you, Mr. Chairman and Mr. Turner. Frankly 
this is a pretty easy assignment. I would have expected that 
this is already part of the law, and if it isn't, it ought to 
be. I certainly believe that I could work for 3 or 4 days and 
not find anybody who would not think that it is a good idea. It 
should be done, and I certainly support the concept and the 
legislative proposal that I have seen.
    One thought that may be worth mentioning is in the language 
of other activities in ``briefings, workshops and other 
activities,'' either in the committee report language or--I am 
not much on micromanaging in the bill. I should think that we 
should authorize development of a handbook or pamphlet or memo 
or whatever. One of general character for those people across 
the board, especially those who are going to face confirmation, 
but perhaps a specialized one for those people who are going 
into the departments and the agencies and who should know 
something about the problems that are there.
    I was very fortunate to be part of the transition team from 
President Eisenhower to President Kennedy, and as you said, the 
statute that you are attempting to amend was adopted in 1963. 
In the fall of 1960, there were--I am not kidding you, there 
were six people working with the Eisenhower administration from 
the Kennedy group. There were others involved in recruiting 
important players, but the actual substantive involvement was a 
group of only six. Happily, President Eisenhower had made it 
clear to everybody in his administration that cooperation was 
required, and we got it, especially from what was then the 
Bureau of the Budget. Since those days things have grown as 
things do grow in government and elsewhere, and I can tell you 
that the notion of trying to have an opportunity to explore 
with and explain to Presidential appointees some of the 
pitfalls, some of the requirements and some of the ideas that 
they should bear in mind as they go into these new jobs is 
absolutely essential.
    In the Kennedy White House, although the President didn't 
ever put it this way, we tried to make sure if anybody was 
ignorant, he also wasn't arrogant, because that is a terrible 
combination. In the White House, I will tell you, even if you 
are not at the top tier, just in the middle, the kids who knew 
you in grade school are going to call you. I remember going 
home and telling my wife I must have gotten terribly, terribly 
bright overnight because before nobody gave a damn what I said, 
and now everybody wants to know what my views are. I said I 
wonder if it works in reverse when you leave, and the answer is 
yes, it does work in reverse. But it is heady stuff, and I 
think not only the Cabinet officers, but the White House staff 
has to have instruction.
    It would be a good idea, if the President were so minded, 
to make sure that his designated Chief of Staff was the one who 
made this happen and that he himself could partake of it.
    The pitfalls are many: ethical questions, financial 
disclosure. You know, that is a very important thing, but I 
would also urge that we go back a step and that the recruiters 
know some of these issues so they are not blindsiding the 
person who is flattered to be considered for a high position.
    President Kennedy had intended to appoint a fellow to the 
D.C. Board of Commissioners. It was going to be a very 
significant one. He was going to be the first black 
Commissioner in the District of Columbia, Frank Reeves. 
Unfortunately, it came out later that Frank had forgotten to 
pay his income tax. Nobody had asked him if he had paid his 
income tax.
    Now there is a checklist, I am sure, and those are the 
types of issues, but also you have to try to inculcate in them, 
especially the White House staff, what their relations are to 
the Cabinet. Cabinet officers get very, very testy, I can 
promise you, when some White House staff guy calls him up and 
says, the President says--he is thinking, why didn't the 
President call me?
    That is another part of the necessary skills and judgment, 
and hopefully you don't make too many mistakes. We can't kid 
ourselves, you cannot legislate or mandate common sense and 
good judgment in people. What you can do is tell them some of 
the basic rules that you want as President, that you want 
followed, and hope that it will take.
    One of the benefits of mankind is to profit by other 
people's mistakes, and so anybody who is part of this teaching 
team is going to be able to find a whole host of mistakes which 
have been made by others in the past to illustrate the point of 
how difficult it can be. Everybody is busy. Everybody is 
flattered. There are receptions around town, and you can hardly 
believe your good fortune to be part of a brand new 
administration. But people have to understand that if the 
President wants it, don't forget, we are here recommending that 
the President in his transition, the President-elect in his 
transition do certain things, and hopefully he will, and if it 
is institutionalized, there is a better chance of it happening 
that way.
    And without wanting to beat a dead horse to death, I want 
to say that I do support the idea, the concept and the 
legislative proposal. And as I said at the outset, please let 
me know if anybody is opposed to it. I would like to talk to 
them.
    Mr. Horn. You remind me of a few experiences in that point 
in time. I was administrative assistant to Secretary of Labor 
Mitchell under President Eisenhower the last year and a half, 
and we were involved in some of what the President wanted done 
in the transition, such as preservation of papers, where do 
they go, and so forth and so on.
    I think one of the problems that I have observed in both 
Republican and Democratic White Houses is the younger members 
of the staff who go in like they are still running a campaign 
in both parties. I have seen it, and I think it is pathetic, 
shall we say. I remember one young Kennedy aide who got a 
lesson in executive legislative relations when he left a note 
on the door of a southern Congressman. He said, the President 
wants you to vote this way. Needless to say, Larry O'Brien 
heard about that and educated the young man, since Larry was 
one of the greatest Ambassadors from the White House to 
Congress in probably this century.
    Mr. White. He did not require a checklist of things to do. 
The gentleman was innately a gentleman, and crafty and smart 
and very obliging. I remember he called a Congressman from 
Nebraska and with tears in his eyes told him that they were 
going to close the Veterans' Administration Hospital in 
Lincoln, and the guy was so pleased that Larry had called him 
ahead of time that he almost was grateful. Can you believe 
that?
    Mr. Horn. That is true. Courtesies are important, but I 
don't think that we can just worry about the high-level 
Presidential appointees, we need to get down into the grass 
roots of some of the red-hots on the campaign trail who feel 
that they have personally elected the President alone, and I 
have run into that type in both Democratic and Republican 
administrations.
    Mr. White. That may be why a little booklet would be 
helpful.
    Mr. Horn. Plus a good talking to by people who have had 
positions in other administrations. I think that helps.
    I want to yield time to the gentleman from Texas, Mr. 
Turner, the ranking member, to open with questions. It is all 
yours.
    Mr. Turner. I think Mr. White said it all. If this is not 
in the law, it should be. I found it fascinating to hear 
Secretary Richardson recount some of his experiences. Both of 
you have a wealth of knowledge in government, and I appreciate 
very much Secretary Richardson's reference to the fact that we 
need to be careful how we use the word ``bureaucrat'' because 
it is the people who have committed their entire lives to 
government service that really hold this place together. If we 
understand that partnership between the political appointees 
and the career public servant, I think this place can function 
to the benefit of the American people.
    Mr. White, listening to your comments, it made me wonder if 
there are not some other things that we should be thinking 
about putting in this legislation. The period of time between a 
November election and the inauguration is really very short, 
and some of the stories that I have heard in my period of 
public service oftentimes shock me. I heard one story related 
to me by an appointee who was recounting how he was shocked to 
learn that he was actually the appointee to a major head of an 
agency of our government. The announcement came at a press 
conference, and he had only a brief conversation with the 
President about the possibility of serving. Those kinds of 
stories do remind us that a President-elect and transition is a 
very hectic time and difficult time.
    As the chairman said, oftentimes those who run the campaign 
are not those who you would select to run the Presidency. Yet 
it is those people who were involved in the campaign that 
oftentimes are making many of the decisions.
    So perhaps there are some other ideas that we should 
consider in this legislation, and if there are, we have a 
distinguished panel here, and we would certainly welcome your 
suggestions. I know that the chairman would.
    But I really have no questions, Mr. Chairman. I have just 
enjoyed the depth of experience that has been shared with us.
    Mr. Horn. Thank you very much.
    I now yield to Mr. Ose, the gentleman from California.
    Mr. Ose. Thank you, Mr. Chairman. I find myself somewhat in 
awe. There is not a person alive of my generation who does not 
know of Secretary Richardson, and I am pleased to have the 
opportunity to visit with Mr. White.
    I think the thing that troubles me on this whole issue of 
transition is when I got here in January as a new Member, 
having come straight from business, I kind of felt like I was 
on the wrong end of a fire hose, and in that regard I find 
great merit in this transitional training idea between the 
November election and the January swearing in. And I am curious 
as to the specific criteria at the level that you both served 
that you find most critical to impart to the new appointees.
    Mr. Richardson. The most----
    Mr. Ose. The most critical--when someone comes into one of 
these agencies, there is a whole bunch of stuff that they have 
to learn, and they only have 60 days roughly to learn it. What 
are the most critical things that those new appointees need to 
learn?
    Mr. Richardson. I think that is a good question, and I 
think I have an almost unique background for answering it, 
having had to deal with many new jobs. I ended up with 10 
Presidential appointments. Some of them I held very briefly, 
but invariably in a new job the first thing that I came to 
understand is that you need to come to know as fast as you can 
the people you are going to be working with, including the 
other Presidential appointees in your department.
    At the outset you may not have had a whole lot to say about 
it. In time you do have. But also the key thing is the career 
positions.
    The second thing you need to know is what are the 
significant issues or problems that have to be addressed and 
what are the relative priorities in time. What do you have to 
resolve first, and what do you have to know in order to be able 
to reach either a decision or to give a recommendation to the 
President. And then as time permits, what are the new 
undertakings or recommendations or changes of direction that 
you may want to initiate as time goes on. That, I think, is the 
sequence that is relevant to any new Presidential appointment.
    Once you get outside the walls of the organization to which 
the new appointee--in which the new appointee will be serving, 
you then need to look at the relationships, starting with the 
Congress and the committees that have most to do with the 
initiatives, the budget and so on, of that governmental entity. 
You try to make the most of the first round of contacts with 
the most senior people, and liaison as you can. Beyond them are 
the national organizations which have the greatest interest and 
influence on the issues you address, and whose support or 
opposition may be important.
    And then you have to be thinking in terms of the media, the 
press, television and radio, both the general ones and the more 
specialized people who address parts of what you do.
    I would like to add, Mr. Chairman and members of the 
subcommittee, that I am reminded by Mr. White when he talked 
about the relationship between new appointees and the Congress, 
with respect to all of these relationships, I learned one thing 
which I would want to emphasize to anyone coming into 
government. That is that you've got to understand that the 
person you are dealing with in a position where there is a 
strained relationship, even hostility perhaps, further down the 
road is by and large somebody like yourself but with a 
different job than you.
    I think one of the best, most important lessons that I 
learned when I became the legislative assistance to the then 
senior Senator from Massachusetts, who was also Majority whip 
and chairman of Armed Services, it is amazing to think that--
this was in 1953--he had only one legislative assistant. He had 
a chief of the office staff and one other political person on 
his staff, but I was the one, it turned out, who dealt with the 
press. One of the people that I dealt with is still around 
town, Rollie Evans, who later came to Congress. He was the AP 
reporter who covered us, and there were a number of others.
    Mr. Ose. Mr. Attorney General, if I may, I wrote down those 
five things, the people who were also similarly appointed to 
yourself, for instance, in this transition; what are the 
significant issues or problems; what are the congressional 
committees with jurisdiction; what are the nongovernmental 
groups who have interest; and who in the media cover this 
issue.
    Mr. White, do you share that analysis?
    Mr. Richardson. One quick point. Bearing in mind what I 
said about the press is, I assumed and found out that these 
guys had their own job to do, and if I simply understood that, 
as it turned out, there would be no problem. That is a very 
simple point that applies to all of these relationships. If you 
understand well enough, use your imagination well enough to 
recognize these other functions and their demands, it becomes a 
hell of a lot simpler.
    Mr. Ose. Thank you. Mr. White.
    Mr. White. I would only add a couple of things. Of course I 
would agree with everything. I should point out that when I 
first met Elliot Richardson, he was administrative assistant to 
the senior Senator from Massachusetts. I was a legislative 
assistant to the junior Senator from Massachusetts, John F. 
Kennedy, so that is how far we go back. Elliot was always 
erudite then and, as you said, an icon of the way a public 
servant should conduct himself, and he has always been that 
way.
    What I would add to his list, I think you have to get a 
good hold on who are the interest groups that you are going to 
meet because you are sure going to meet them. They will be 
there, you can bet on that.
    Next, I think you ought to get to the--what is now the OMB, 
the old Bureau of the Budget. Those folks, I don't know if it 
is politicized these days, but it didn't used to be. You could 
really get the low-down on what is going on in any particular 
department and agency. So I think you ought to make that stop.
    And then if you are skillful, I would think that you would 
find that particular character in the White House staff who you 
want to be your entree and establish as good a relationship as 
you can.
    Obviously not everybody, every Cabinet or agency head is 
going to be able to get to the President on every issue. They 
have to call their shots, unless, of course--I would exclude 
some of the more important ones, in my view, State, Defense, 
the Attorney General, probably Treasury, but the Secretary of 
HUD doesn't normally go right smack into the President, so he 
ought to be able to identify who in that staff is his person.
    Above all, I think you have to shake yourself a little bit. 
As Elliot said, this is a temporary assignment. Political 
appointees come and go, but the people in the agencies for the 
most part will be there when you get there, and they will be 
there when you leave, and it is very important that you know 
who the key people are. One of the ways to get a fix on that is 
to talk to your predecessor who held that job, so I would add 
that.
    Mr. Richardson. I think those are important additions. I 
left them out, but I totally endorse what Mr. White said.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Horn. If I might add a few things to what Mr. White has 
said as a fellow legislative assistant just a few years after 
you two gentlemen, besides going to the budget examiner, which 
I think is what Mr. White is referring to, I regret to say that 
function has been politicized. In other words, Roosevelt, 
Truman and Eisenhower had career people, and you kept them 
between administrations, and they gave you a lot of good 
advice. I think we ought to get back to a lot of that, but that 
is another story. But the budget examiner is certainly one.
    The people that come to see me that are Presidential 
appointees, I say, look, go over to GAO. There is an expert 
over there in that department. Take a look and they will give 
you a lot of studies and so forth, and then go to the Inspector 
General, you are going to have to deal with that person, and 
find out what are the key problems that everybody has shoved 
under the rug, and you will find that.
    So I would think those are a few of the things that you 
might want to tack onto the list here.
    Are there any questions that the gentleman has?
    I thank you both for coming. We appreciate it very much, 
and any thoughts you have on what we can add to this bill. It 
is simply a draft bill. It hasn't been put in yet. I hope our 
Democrat colleagues and Republican colleagues will go on it. It 
might sound a little small, but that is OK, we make progress 
step by step.
    I thank both of you for coming. It is a great experience to 
see both of you again, and we will go to panel two now.
    We have Mr. Ink, Mr. Light, and Mr. Ornstein.
    [Witnesses sworn.]
    Mr. Horn. We will start with Mr. Ink, former Assistant 
Director, Office of Management and Budget in charge of General 
Services Administration and all sorts of things in a very 
valuable career in government.
    We hope to get you all out of here by noon, so I think we 
are in pretty good shape. You have sent us very fine papers 
here. If you could just summarize it and don't read it.
    Mr. Ink.

STATEMENTS OF DWIGHT INK, FORMER ASSISTANT DIRECTOR, OFFICE OF 
MANAGEMENT AND BUDGET; PAUL LIGHT, DIRECTOR, CENTER FOR PUBLIC 
    SERVICE, BROOKINGS INSTITUTION; AND NORMAN J. ORNSTEIN, 
  RESIDENT SCHOLAR, AMERICAN ENTERPRISE INSTITUTE FOR POLICY 
                            RESEARCH

    Mr. Ink. Thank you, Mr. Chairman and members of the 
committee. It is always a pleasure to have the opportunity to 
testify before this committee and particularly today on behalf 
of this Presidential Transition Act bill which you plan to 
introduce.
    I believe it can improve government in two important ways. 
First, it can reduce costly missteps by well intentioned 
incoming political appointees. Second, it can improve the 
performance of appointees on whom a new President will have to 
rely in launching his or her administration. I have worked with 
scores of Presidential assistants over the years, and their 
performance certainly varies from outstanding to just plain 
awful.
    An incoming administration brings in a number of new 
political appointees, as you have said, who are very able 
people with impressive backgrounds, but except for those who 
have had prior experience, almost none of them realize what 
awaits them in Washington. The pressures from all sides, the 
intrusive scrutiny that characterizes Washington, are a shock 
for which they are not prepared, and they find they are 
expected to develop new programs and legislative proposals that 
have to be advanced through a maze of processes and procedures 
with which they are not familiar. Yet time is of the essence in 
the first days of an administration when the opportunities are 
greatest.
    The steep learning curve needed for these officials to get 
on top of their job is made more difficult because so many of 
them have been immersed in campaigns that are very negative 
toward Washington. They arrive, therefore, loathe to take 
advice from anyone in Washington, neither the Washington 
bureaucrats nor outgoing political leaders whom they feel have 
been captured by inside-the-Beltway creatures who have lost 
touch with the real America.
    As a result, these new political figures, no matter how 
capable, are in real danger of stumbling during these first 
crucial weeks, not so much from what they are striving to do as 
from how they are functioning and their lack of familiarity 
with the techniques that are most likely to get things done in 
this complex Washington environment. These mistakes produce 
headlines and grist for the TV programs, and they reinforce the 
negative view that the public has of government.
    Further, ignorance of the techniques and approaches that 
can best transform policy objectives into actions weakens the 
ability of an administration to advance the agenda on which the 
voters have placed it in office.
    This bill would help meet the critical need for more 
transition attention to how incoming political leaders can 
manage the challenging processes of governing.
    What type of subject matter to include? The bill, I think, 
properly leaves flexibility to a President-elect, but my 
written testimony does list several critical areas in which I 
think orientations could be especially helpful. Approaches to 
working effectively with Congress, for example, should be an 
important subject. Some incoming appointees have never read the 
Constitution and look down upon the Congress as simply a 
problem institution to deal with as little as possible, rather 
than as a partner in government.
    Confusion over the roles of White House staff and their 
relationship to departments, mentioned in the prior panel, is 
another area in which new administrations tend to flounder at 
first and another subject to be included.
    An area that is perhaps least understood by new political 
appointees is one which Elliot Richardson talked about at some 
length. That is the value of the career service and how to 
provide it with positive leadership, a gap in knowledge that 
can be very costly. The career leadership is a tremendous and 
indispensable resource of incoming political appointees, but it 
needs to have positive leadership.
    Although orientations are not going to reduce the 
conflicting pressures, the number of pressure groups, or the 
incessant scrutiny that characterizes Washington, they can be 
of great help in preparing new appointees to cope with these 
circumstances.
    Finally, as to style, I would certainly hope that the 
orientations authorized by this bill would be organized much 
more as informal discussions and workshops with particular 
emphasis on involving those who have served in these kinds of 
positions in prior administrations, and not as lectures or 
briefings.
    In conclusion, Mr. Chairman, I think there are many things 
that can be done to help improve the Presidency. I think the 
work that Norm Ornstein and his organization are doing and that 
of Paul Light and the Center for the Study of the Presidency 
may provide grist for this committee to consider other 
legislative suggestions.
    I think this bill deserves strong bipartisan support as one 
of those steps that can make the American Presidency more 
effective in the 21st century. Thank you.
    Mr. Horn. Thank you very much. That is a very thorough 
document that you have presented, and we appreciate it.
    [The prepared statement of Mr. Ink follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.012
    
    [GRAPHIC] [TIFF OMITTED] T4650.013
    
    [GRAPHIC] [TIFF OMITTED] T4650.014
    
    [GRAPHIC] [TIFF OMITTED] T4650.015
    
    [GRAPHIC] [TIFF OMITTED] T4650.016
    
    [GRAPHIC] [TIFF OMITTED] T4650.017
    
    [GRAPHIC] [TIFF OMITTED] T4650.018
    
    [GRAPHIC] [TIFF OMITTED] T4650.019
    
    [GRAPHIC] [TIFF OMITTED] T4650.020
    
    [GRAPHIC] [TIFF OMITTED] T4650.021
    
    [GRAPHIC] [TIFF OMITTED] T4650.022
    
    [GRAPHIC] [TIFF OMITTED] T4650.023
    
    Mr. Horn. Next is one of my favorite authors, Dr. Paul 
Light, and I urge anyone who thinks that we don't have problems 
to read Thickening Government. Those in the Eisenhower 
administration, as a number of us were in this room, it is just 
unbelievable the royal titles that have been added on, 
Councilor to the Secretary, it is like Bismarck had been 
reincarnated in America. I must say, the legislative assistant 
is bad enough. It is now called the legislative director, and 
there are numerous legislative assistants, and I think we got 
just as much done in those days as they are getting done now 
with five more people.
    Mr. Light. It is a pleasure to testify before one of my 
favorite readers; one of my few readers, I might add.
    The last time I was here, we were talking about raising the 
President's salary, and a particularly nasty conversation with 
a colleague from another perspective, but you got that done, 
and congratulations to this subcommittee for being the engine 
of a rather significant amount of reform in these past years. 
It is rather quite remarkable what the chairman and the members 
of this committee have been able to accomplish. I look now on 
this subcommittee as a real treasure for actually producing 
meaningful reform in relatively small bites, but you show the 
value of making those small steps, and they add up.
    Mr. Horn. We had good bipartisan support.
    Mr. Light. I wish I could have given your e-mail address 
rather than mine in the wake of raising the President's salary 
because I got a ton of e-mail from people who thought that was 
not necessarily the best idea of all time. It was a good idea, 
and I am glad that you were able to do it. I mean, I am 
obligated whenever I testify with Dwight Ink to endorse 
whatever Dwight Ink says. It is part of the obligation that I 
have, and this is an easy one to do. The National Academy of 
Public Administration has long supported this idea. The Volcker 
Commission has supported it. Al Gore and National Performance 
Review had buried in one of their appendices in their first 
report in 1993 an endorsement of this idea. They didn't do 
anything about it even though the vice president could have, I 
suspect, persuaded the President to institute an orientation 
program. It was not done. The Council for Excellence in 
Government does do orientations now. They have some private 
funding to do so, and the Pew Charitable Trust, which has 
funded Norm Ornstein's project and mine, did include in our 
grant some funds to do orientation. We would be delighted to 
have the orientation adopted as an ongoing responsibility of 
government.
    As you know, in the statement I can't resist an opportunity 
to expand an idea, no matter how good. My concern about this 
bill is simply that if you are going to open up the 
Presidential Transition Act of 1963, perhaps we can add one or 
two ideas to that legislation that would address other issues 
that I think we have broad general agreement need to be fixed.
    My general point in the statement is that the Presidential 
appointments process as it is currently operating today is 
teetering on the edge, if not completely broken. We are not 
generating appointments in a timely fashion. We have more 
vacancies now in this administration than I daresay existed in 
Disney World during Hurricane Floyd. We are in a situation now 
where we do not make timely appointments. The Senate is unable 
to discharge its responsibilities in a timely fashion, and I 
think it is fair to argue that no matter how good the 
orientation program might be that this subcommittee would 
design and produce, and no matter how good it would be actually 
implemented, we are now in a situation where there are serious 
problems with the appointments process. No appointees equals no 
value from an orientation program.
    I summarize the role of citizen service by invoking Thomas 
Jefferson's tremendous commitment to the notion that all 
citizens are obligated to serve, but in reality we are seeing 
increases in vacancy rates, increases in delays, increases in 
refusals to accept appointment, and an increase in departures. 
There is no question that the thickening of government has 
something to do with it, a small piece to do with it. Pay has 
something to do with it. The general climate in this country 
toward service has something to do with it.
    We are working now as part of the Presidential Service 
Initiative at Brookings in collaboration with other 
organizations and in partnership with others who are working on 
this issue to generate meaningful pragmatic bipartisan ideas 
for reform, and we will be bringing those forward in the 
future.
    However, I cannot resist remembering being in this room in 
1988 when the Senate Governmental Affairs Committee and the 
House Government Operations Committee were debating the 1988 
Presidential Transitions Effectiveness Act. As you know, most 
of these kinds of conferences are staff-driven, but a gentleman 
who is remembered through this painting to my left and your 
right entered this room through that door to argue against, and 
reasonably argue against, the notion of providing a little bit 
of preelection transition planning support for the two major 
party committees, and we dropped that provision.
    It had bipartisan unanimous support from the Senate. We 
could not make the case here in this Chamber. Certainly it was 
a thin reed on which to make the case that giving the parties 
$250,000 each to do a little bit of advance planning in the 
preelection period might improve the odds that they could get 
their appointees in place in time so they could take advantage 
of this wonderful idea for an orientation program that this 
subcommittee is now considering.
    I strongly urge the subcommittee to take another look at 
that provision. It is a tiny amount of money, a mere pile of 
balloons that we could easily take out of the funding that we 
are giving the two national party committees to host their 
conventions next summer. It is a nice little idea. I haven't 
asked Dwight how he feels about it.
    Mr. Ink. I support the idea. I think there are a number of 
things that can be done in addition to this. I just--this is 
one that I thought would have bipartisan support that we could 
probably get passed rather easily.
    Mr. Light. These are good little ideas for improving the 
odds that the next administration, be it Democrat or 
Republican, will hit the ground running, and we have examples 
from past history of administrations that have hit the ground 
going backward and that have hit the ground going forwards. And 
I think the model transition is the 1980 Reagan administration, 
which is clearly a product of thoughtful preelection transition 
planning and the courage of a Presidential candidate that said, 
I am going to be governing if I am elected, and I need to start 
planning today. Whether this subcommittee needs to get in the 
business of telling candidates to do that is a judgment call, 
but I would be remiss if I didn't take advantage of this 
opportunity to thicken the legislative agenda.
    Thank you.
    [The prepared statement of Mr. Light follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.024
    
    [GRAPHIC] [TIFF OMITTED] T4650.025
    
    [GRAPHIC] [TIFF OMITTED] T4650.026
    
    [GRAPHIC] [TIFF OMITTED] T4650.027
    
    [GRAPHIC] [TIFF OMITTED] T4650.028
    
    [GRAPHIC] [TIFF OMITTED] T4650.029
    
    [GRAPHIC] [TIFF OMITTED] T4650.030
    
    [GRAPHIC] [TIFF OMITTED] T4650.031
    
    [GRAPHIC] [TIFF OMITTED] T4650.032
    
    Mr. Horn. I might add that the gentleman up there that you 
pointed to, when I went from the Hill down to the Brookings 
Institution as a senior fellow, I had a big dinner for a lot of 
leaders from the Hill and key staff people on bringing 
computers to Congress, which I had started in the Senate.
    At the end of the dinner the individual to whom you 
referred said, ``You're going to get that done over my dead 
body.'' So, when I came here, I introduced myself again to the 
chairman. He wasn't chairman of Government Operations at that 
time. And I said, Mr. Chairman, I am just curious. A mutual 
friend of yours and mine in Texas told me the story that when 
you first ran for office, you didn't like what your opponent 
was saying about you, it was a Democratic primary fight, and 
you put a .45 on the podium and said, if my opponent says in 
this debate what he said the last time, I am going to blow his 
brains out. And he paused on that and chomped on his cigar and 
said, ``My opponent didn't have any brains,'' a colorful Member 
of the House.
    Mr. Ornstein.
    Mr. Light. He was a great chairman.
    Mr. Ornstein. Mr. Chairman, it is a pleasure to be 
testifying with this group of four individuals. I had the 
wonderful honor of serving on the National Commission of Public 
Service with Elliot Richardson and working closely with him, as 
I did with Paul.
    I did not have the privilege, I am thankful to say, of 
testifying in favor of the Presidential pay raise. I say it 
thankfully because I was out front the last time in 1988 and 
1989, and I remember especially the only time I did Crossfire, 
I don't like to do a screaming shows, but I felt a public 
service commitment, and I got ganged up on by Pat Buchanan and 
Ralph Nader, which I continue to view today as a badge of great 
honor.
    Mr. Horn. Saint Peter will pass you through.
    Mr. Ose. Were you able to tell which one was which?
    Mr. Ornstein. I couldn't then, and I can't now, as a matter 
of fact. They merge into Ross Perot, I'm afraid.
    I, of course, am very supportive of this piece of 
legislation, and I thank Dwight Ink for not only his decades of 
public service, but for continuing to champion some of these 
goals. Like Paul, I believe this is a small, essential step. We 
need to clarify the law in this regard, even though it could be 
done as the law is today. I also believe that the subcommittee 
should use this opportunity to broaden its focus into a number 
of other areas.
    I very strongly endorse the notion of committing some money 
for preelection transition planning as a part of a broader 
effort, it seems to me, to move away from the notion that 
candidates have that it is presumptuous of them to even think 
of the notion of governing before the election. What happens is 
that after the election, they are exhausted. The winner is 
triumphant and needs some time to catch his breath. Everything 
that a new President-elect does is viewed by the press as 
wonderful, building them up before they tear them down, and 
there is no focus of preparing oneself or one's team generally. 
We drift through until the inauguration and then stumble along.
    Steps that we can take now suggest that it is appropriate 
and necessary to think ahead so you can actually be prepared to 
govern, and that governing itself is something to be considered 
during the campaign by everybody.
    At the same time it seems to me we have an ideal 
opportunity with an open Presidential contest, neither side 
seeing the strong need to tear down the other to keep things 
from working well afterwards, to really rethink or think 
through the whole gamut of issues surrounding the transition 
and the governing process. And I would like you look at the 
layering of political appointees, something that we dealt with 
very directly, that Elliot and I did in the Volcker Commission. 
The appropriate level of financial disclosure of political 
appointees. The desirability of reducing and standardizing the 
clearly confusing and overlapping forms that appointees must 
fill out, and rethinking the number and nature of nominees who 
require full FBI background checks.
    The amount of time at every layer of this process and every 
level when you begin to think about making appointments is 
expanding. It is discouraging people from getting in, and it is 
keeping them from moving in when they take the jobs.
    I would also like to see this as an opportunity to step 
back and see if we can take some small steps for a larger goal. 
I think of the broken window thesis of James Wilson that would 
send a signal that we want to change a culture that says if you 
come into public service, you are guilty until proven innocent, 
and begin to reestablish the notion that it is not such a bad 
thing to serve a period of time for your country.
    As for the orientations themselves, for the last couple of 
decades I have been very active in a variety of the orientation 
programs that AEI and Brookings have done for new Members of 
Congress and that the Kennedy School does up at Harvard. Every 
Member who has been through those orientations knows when you 
come to Congress, it is a very different experience, whether 
you come from the business world or a legislative body. That is 
at least as true if not more so of top political appointees or 
lower-level political appointees, and it clearly is something 
that ought to be done and we ought to do now.
    Let me just note, finally, Mr. Chairman, that I am heading 
up, along with Tom Mann at Brookings, and we are working very 
closely with Paul Light on a project that we call the 
Transition to Governing Project, and we are doing a variety of 
things to try to assist along this way. All of us want to work 
carefully with you.
    One of the things that we are doing in conjunction with 
Martha Kumar, who is here today, is we are trying to prepare a 
piece of software that we hope will be the functional 
equivalent of turbo tax maybe crossed with the college 
applications software for appointees to make it easier to fill 
out those forms which now are a daunting task and probably 
discourage a number of people from serving at all. We really 
ought to rethink what goes into them in the first place.
    [The prepared statement of Mr. Ornstein follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.033
    
    [GRAPHIC] [TIFF OMITTED] T4650.034
    
    [GRAPHIC] [TIFF OMITTED] T4650.035
    
    [GRAPHIC] [TIFF OMITTED] T4650.036
    
    [GRAPHIC] [TIFF OMITTED] T4650.037
    
    [GRAPHIC] [TIFF OMITTED] T4650.038
    
    Mr. Horn. We thank you all. Given the situation on the 
floor and the voting schedule, I want to thank all of you as 
witnesses. If you don't mind, we would like to send you some 
questions that we might insert at this point in the record.
    I should add to this that we have testimony not only from 
our witnesses today, but General Andrew J. Goodpaster, who I 
knew as Staff Secretary to President Eisenhower, the first time 
the White House had such a position, when he was a young major, 
and he will give us some documents, and then so will Pendleton 
James, Assistant to the President for Presidential Personnel 
during the Reagan administration, and he has submitted an item 
for the record. These are two very distinguished gentlemen who 
have a unique perspective on the Presidency and the transition 
process, and we welcome their process.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.039
    
    [GRAPHIC] [TIFF OMITTED] T4650.040
    
    [GRAPHIC] [TIFF OMITTED] T4650.041
    
    [GRAPHIC] [TIFF OMITTED] T4650.042
    
    [GRAPHIC] [TIFF OMITTED] T4650.043
    
    Mr. Horn. The hearing record will remain open for 2 weeks 
for additional insertions.
    [The prepared statement of Hon. Jim Turner follows:]

    [GRAPHIC] [TIFF OMITTED] T4650.044
    
    [GRAPHIC] [TIFF OMITTED] T4650.045
    
    Mr. Horn. I want to thank the staff that prepared this 
hearing on both sides, Mr. George, the staff director and chief 
counsel for the subcommittee; Mr. Ebert on my left, policy 
advisor; Bonnie Heald, director of communications. She is in 
the back, seated back there; and Chip Ahlswede, our clerk; and 
P.J. Caceres, intern; and Deborah Oppenheim, intern.
    And for minority we have Trey Henderson, counsel, and Jean 
Gosa, minority staff assistant; and we have our faithful court 
reporter Doreen Dotzler. Thank you very much.
    With that, we will adjourn this session and go and vote.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
